                                                                             Report No. DODIG-2014-122



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 26, 2014




                     Independent Auditor’s Report on
                     the Agreed-Upon Procedures for
                     Reviewing the FY 2014 Civilian
                     Payroll Withholding Data and
                     Enrollment Information




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                          September 26, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
	                FINANCIAL OFFICER, DOD
	              UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
	              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
	                AND COMPTROLLER)
	              CHIEF, NATIONAL GUARD BUREAU
	              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
	              DIRECTOR, DEFENSE LOGISTICS AGENCY
	              NAVAL INSPECTOR GENERAL
	              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
	              INSPECTOR GENERAL, DEPARTMENT OF ENERGY
	              INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND HUMAN SERVICES
	              INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS
	              INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
	              INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT

SUBJECT:	 Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
	         the FY 2014 Civilian Payroll Withholding Data and Enrollment Information
	         (Report No. DODIG-2014-122)

We are providing this final report for your information and use.

We appreciate the courtesies extended to the staff.         Please direct questions to me at
(703) 601-5945.




	                                               Lorin T. Venable, CPA
	                                               Assistant Inspector General
	                                               Financial Management and Reporting




                                                                                      DODIG-2014-122 │ III
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                          September 26, 2014

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001

Subject:   Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
	          the FY 2014 Civilian Payroll Withholding Data and Enrollment Information
	          (Project No. D2014-D000FP-0109.000)

Dear Mr. McFarland:

We performed the procedures described in the Enclosure, which were agreed to by the
Chief Financial Officer and the Inspector General of the U.S. Office of Personnel Management
(OPM). We performed these procedures solely to assist in assessing the reasonableness of
the employee withholdings and employer contributions that the Defense Finance and
Accounting Service (DFAS) reported on Standard Form 2812, “Report of Withholdings and
Contributions for Health Benefits, Life Insurance, and Retirement,” for the pay periods
ending August 24, 2013; September 7, 2013; December 14, 2013; February 22, 2014;
and March 8, 2014. We also performed these procedures to assist in assessing the
reasonableness of the amounts reported in the “Supplemental Semiannual Headcount
Report,” as of September 2013, and March 2014. The reports submitted by DFAS included
information for the following entities listed in Appendix A of the Office of Management and
Budget, Bulletin No. 14-02, “Audit Requirements for Federal Financial Statements”: the
Department of Defense (DoD), Department of Energy (DoE), Department of Health and
Human Services (HHS), Department of Veterans Affairs (VA), and Environmental Protection
Agency (EPA). In addition, we performed procedures to assist OPM in identifying and
correcting errors relating to the processing and distribution of Combined Federal
Campaign (CFC) payroll deductions.

Using ACL software, we randomly selected a sample of 400 employees from the
December 14, 2013, pay period from the 11 DFAS payroll data files (Army, Navy,
Air Force, Other Defense Organizations [ODO], Overseas Army/DoD, Overseas DoD,
Shipyard DoD, DoE, HHS, VA, and EPA). We compared the sample of 400 employees’ pay and
withholdings and agency contributions in the Defense Civilian Pay System to the documentary
support in the Official Personnel Files (OPFs). Of the 400 OPFs, 200 represented DoD
employees, 50 represented DoE employees, 50 represented HHS employees, 50 represented VA
employees, and 50 represented EPA employees.


                                                                                      DODIG-2014-122 │ 1
           Auditors from the DoE and HHS Offices of Inspector General performed the agreed-upon
           procedures (AUP) that involved reviewing their agency OPFs. We reviewed their working
           papers and determined that we could rely on their work.

           We performed the agreed-upon procedures in accordance with generally accepted government
           auditing standards, which incorporate financial audit and attestation standards established
           by the American Institute of Certified Public Accountants. The sufficiency of these
           procedures is solely the responsibility of the OPM Chief Financial Officer and the
           OPM Inspector General. Consequently, we make no representation regarding the sufficiency
           of the procedures either for the purpose for which this report has been requested or for
           any other purpose.

           We were not engaged to express an opinion on whether the health benefits, life insurance,
           and retirement contributions and withholdings, or the enrollment information submitted
           by DFAS to OPM were reasonable and accurate. Accordingly, we did not conduct an
           examination, nor did we express such an opinion. Had we performed additional procedures,
           other matters might have come to our attention that we would have reported to you. We
           provided a discussion draft of this report to the entities listed in the transmittal memorandum.

           This report is intended solely for the information and use of the OPM Chief Financial Officer
           and OPM Inspector General and is not intended to be used by those who have not agreed to
           the procedures or have not taken responsibility for the sufficiency of the procedures for their
           purposes. However, the report is a matter of public record, and its distribution is not limited;
           thus, we will post the report on our website and provide copies upon request.




           	                                              Sincerely,



           	                                              Lorin T. Venable, CPA
           	                                              Assistant Inspector General
           	                                              Financial Management and Reporting
           Enclosure:
           As stated




2 │ DODIG-2014-122
Enclosure: Agreed-Upon Procedures
Performed and Results
This section contains the OPM Agreed-Upon Procedures and the results of completing those
procedures.


Overall Procedure
For employee benefit withholding and contributions, obtain the Agency Payroll Provider’s
(APP) September 2013 and March 2014 Semiannual Headcount Report submitted to OPM
and a summary of Retirement and Insurance Transfer System (RITS) submissions for
September 2013 and the current fiscal year.                                  For each program (retirement, health, and
life), select a total of three RITS submissions for September 2013 and the current FY 2014;
two will coincide with the September 2013 and March 2014 Semiannual Headcount Reports1.
Obtain payroll information for the periods covered by the RITS submissions selected.

For the CFC payroll deductions, obtain the following documentation for the Federal agencies
serviced by the APP:

            a.	 A list of all field offices/duty stations in existence during the fall 2013 CFC
                  solicitation period (September 1, 2013 through January 15, 2014) for each Federal
                  agency serviced. The list must include the OPM Office Duty Station Code or the county,
                  city, state and zip code for the field office.

            b.	 A list of all local CFC campaigns and the areas they cover.                                        This list should be
                  obtained directly from the OPM CFC by sending an e-mail request to cfc@opm.gov.
                  The subject line of the e-mail should be “Payroll Office AUPs-2013 CFC Campaign
                  Location List Request.”

            c.	 A list of accounting codes used by the APP to identify each local CFC campaign.
                  The list should include the accounting code, name of campaign, name of Principal
                  Combined Fund Organization (PCFO) for that campaign, and address of PCFO.

            d.	 A report of all employees with CFC deductions from the RITS submission selected
                  to coincide with the March 2014 Semiannual Headcount. The report must include
                  each employee’s official duty station location and the APP’s accounting code identifying
                  the campaign to which each employee’s funds are being distributed.

	1	
      The September 2013 Semiannual Headcount Report consisted of the following two payroll periods: August 24, 2013 and
      September 7, 2013. The March 2014 Semiannual Headcount Report consisted of the following two payroll periods:
      February 22, 2014 and March 8, 2014. Therefore, to comply with the procedures, we needed to obtain the payroll information
      for two payroll periods, instead of just one payroll period, for each Semiannual Headcount Report. In addition, we selected
      the December 14, 2013, payroll period for the third RITS submission. As a result, we reviewed a total of five payroll periods,
      instead of the three suggested for this agreed-upon procedure.


                                                                                                                                       DODIG-2014-122 │ 3
           Note: Hereinafter, the term payroll information refers to all payroll information, whether it is a payroll
           register, payroll data files, or other payroll support data.


           Procedure 1.
           Compare RITS submission data to the payroll information by performing the following procedures
           (Note: For cross-servicing agencies, if the internal controls are the same for all agencies serviced, it
           is only necessary to perform this procedure for one agency.):


           Procedure 1.a.
           Recalculate the mathematical accuracy of the payroll information.


           Procedure 1.b.
           Recalculate the mathematical accuracy of each RITS submission for the payroll information selected
           in step 1.a.


           Procedure 1.c.
           Compare the employee withholding information at the aggregate level for Retirement,
           Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the payroll
           information obtained in step 1.a. to the related amounts shown on the RITS submission for the
           corresponding period.

           Report any differences for each of the Retirement, Health Benefits, and Life Insurance (categories)
           for step 1.c. that are over 1 percent of the aggregate amount reported for each of the three
           categories. Obtain a management official name, an  explanation, telephone number, and
           an e-mail address for the differences above the 1-percent threshold.


           Results
           We identified 1 difference greater than 1 percent for the Civil Service Retirement System (CSRS)
           comparison. The Navy had a 3.02-percent difference in CSRS. DFAS management stated that
           this difference occurred because there were employees who separated during the pay period
           under review and received a lump-sum annual-leave payment, which is not subject to retirement
           withholding.    In addition, some employees worked overtime; overtime earnings are also not
           subject to retirement. Lastly, some employees reached their maximum contributions for
           old-age, survivor, and disability insurance for the year in the pay period under review, which
           changed their retirement computation.




4 │ DODIG-2014-122
Procedure 2.
Perform detail testing of a random sample of transactions as follows:


Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three of the
RITS submissions selected above that meet all the following criteria. In addition, 1) randomly
select five individuals who are under the Federal Employees [Retirement System]–Revised
Annuity Employees system (FERS-RAE) to test that their FERS-RAE contribution rate was
calculated correctly and 2) randomly select five individuals who are under the [Federal
Employees Retirement System]–Further Revised Annuity Employees system (FERS-FRAE) to
test that their FERS-FRAE contribution rate was calculated correctly:*

        •	 covered by [CSRS] or the Federal Employees Retirement System (FERS);

        •	 enrolled in the Federal Employees Health Benefit Program (FEHB);

        •	 covered by Basic Life Insurance; and

        •	 covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional
           coverage (Option A, B, or C).

*Note: Employees covered by FERS include Federal employees covered by FERS-RAE – effective date
January 1, 2013. For more information and the FERS-RAE contribution rates, see BAL 12-104 available
on the OPM Web site at http://www.opm.gov/retire/pubs/bals/2012/12-104.pdf.

In addition, employees covered by FERS include Federal employees covered by FERS-FRAE –
effective date January 1, 2014. For more information and the FERS-FRAE contribution rates, see
BAL 14-102 available on the OPM Web site at http://www.opm.gov/retirement-services/publications-
forms/benefits-administration-letters/

If a payroll provider has not implemented FERS-FRAE rates, there is no need to test for FRAE
withholding. Then, the payroll provider must document that fact in its AUPs report as well as the
“management’s response” including a listing of what other agencies are affected.


Procedure 2.b.
Obtain the following documents, either in electronic or hard copy format, from the Official
Personnel File (OPF) for each individual selected in step 2.a. Hard copies can be originals or
certified copies.

        •	 all Notifications of Personnel Actions (SF-50) covering the pay periods in the RITS
           submissions chosen;



                                                                                             DODIG-2014-122 │ 5
                      •	 the Health Benefits Election Form (SF-2809) covering the pay periods in the RITS
                         submissions chosen or, if applicable, obtain a report (via the agency personnel office)
                         from the agency’s automated system that allows participants to change benefits,
                         (e.g., Employee Express), for any Health Benefits transactions in that system for the
                         individuals selected in step 2.a. (note: a new SF-2809 is needed only if an employee is
                         changing health benefit plans; therefore, the form could be many years old);

                                 {{   for Health Benefits, compare date of transaction with date on the certified
                                      copy of the SF-2809 or the agency’s automated system report obtained
                                      above to identify whether the health benefit information to be used in the
                                      step 2.f. covers the pay periods in the RITS submissions chosen; and

                      •	 the Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
                         submission chosen (note: a new SF-2817 is needed only if an employee is changing
                         life insurance coverage; therefore the form could be many years old).

           Results
           Of the 240 Official Personnel Files reviewed, a total of 45 documents were incomplete, missing,
           or processed late. We found 1 document from the Army, 6 documents from the Navy, 2 documents
           from the Air Force, 3 documents from the Air National Guard, 6 documents from the ODOs,
           10 documents from EPA, and 8 documents from VA. DoE auditors identified 4 documents,
           and HHS auditors identified 5 documents. See Table 1 for the number and type of documents
           that were incomplete, missing, or processed late, listed by organization.

           Table 1. Number and Type of Documents that were Incomplete, Missing, or
           Processed Late by Organization
                                                   SF-50           SF-2809             SF-2817
                                                       Processed
                  Organization           Missing                   Missing     Incomplete    Missing         Total
                                                          Late
            Army                                                                   1                          1
            Navy                                           5                                     1            6
            Air Force                                      2                                                  2
            Army National Guard                                                                               0
            Air National Guard              1                         2                                       3
            ODO                             1                         2                          3            6
            EPA                             2                         2            1             5           10
            VA                                                        3            2             3            8
            DoE                                                       2                          2            4
            HHS                                                       1                          4            5
              Total                         4              7         12            4             18          45


6 │ DODIG-2014-122
Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for payroll purposes
and upon which withholdings and contributions generally are based to the base salary
reflected on the employee’s SF-50. Report any differences resulting from this step and obtain
management’s explanation for the differences.


Results
We identified 10 differences: 5 differences for Navy, 2 differences for Air Force, 1 difference
for ODOs, and 2 differences for EPA. These differences occurred because the applicable
SF-50s were processed late or were missing.


Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan code
from the employee’s SF-50 to the plan code used in the payroll system. Report any differences
resulting from this step and obtain management’s explanation for the differences.


Results
We identified 4 differences: 1 difference for Air National Guard, 1 difference for ODO, and
2 differences for EPA. These differences occurred because the applicable SF-50s were missing.


Procedure 2.e.
For each individual selected in step 2.a., calculate the retirement amount to be withheld
and contributed for the plan code from the employee’s SF-50, by multiplying the base salary
from the employee’s SF-50 by the official withholding and contribution rates required
by law. Compare the calculated amounts to the actual amounts withheld and contributed
for the retirement plan. Report any differences resulting from this step and obtain
management’s explanation for the differences.


Results
A total of 12 differences were identified. We found 5 differences for Navy, 2 differences for
Air Force, 1 difference for Air National Guard, 1 difference for ODOs, and 2 differences for EPA.
HHS auditors identified 1 difference.    These differences occurred because the SF-50s were
missing or processed late. The HHS difference occurred because of a retroactive adjustment
to an employee retirement account.




                                                                                           DODIG-2014-122 │ 7
           Procedure 2.f.
           For Health Benefits for each individual selected in step 2.a., compare the employee
           withholdings and agency contributions to the official subscription rates issued by OPM for
           the plan and option elected by the employee, as documented by an SF-2809 in the employee’s
           OPF or automated system that allows the participant to change benefits (e.g.,  Employee
           Express). Report any differences resulting from this step and obtain management’s
           explanation for the differences. The health benefits rates can be found on OPM’s website at
           http://www.opm.gov/insure/health/rates/index.asp.


           Results
           A total of 12 differences were identified.                             We found 2 differences for Air National Guard,
           2 differences for ODOs, 2 differences for EPA, and 3 differences for VA. DoE auditors identified
           2 differences, and HHS auditors found 1 difference.                                     The differences occurred because the
           applicable SF-2809s were missing.


           Procedure 2.g.
           For Life Insurance for each individual selected in step 2.a., confirm that Basic Life Insurance
           was elected by the employee by inspecting the SF-2817 documented in the employee’s OPF.
           Report any differences resulting from this step and obtain management’s explanation for
           the differences.


           Results
           A total of 16 differences were identified.                           We found 1 difference for Navy, 3 differences for
           ODOs, 4 differences for EPA, and 2 differences for VA. DoE auditors found 2 differences, and
           HHS auditors found 4 differences.                           These differences occurred because the SF-2817s were
           incomplete or missing. In addition, in one instance, the SF-502 was missing, resulting in an
           inaccurate basic life insurance withholding and calculation.


           Procedure 2.h.
           For each individual selected in step 2.a., calculate the withholding and contribution amounts
           for Basic Life Insurance using the following:




           	2	
                 The SF-50 contains the employees' base salary which is used to calculate withholdings and contributions for FEGLI. When an SF-50 with
                 base salary adjustments is either missing or processed late, there will be differences in the FEGLI withholdings and contributions for the
                 pay period.




8 │ DODIG-2014-122
          •	 For employee withholdings: Round the employee’s annual base salary up to the
            nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
            by the rate required by law.      The life insurance rates are on OPM’s website at
            http://www.opm.gov/insure/life/rates/index.asp.

          •	 For agency contributions: Divide the employee withholdings calculated above by two.

Compare the calculated employee withholdings and agency contributions to the actual amounts
withheld and contributed for Basic Life Insurance. Report any differences resulting from this
step and obtain management’s explanation for the differences.


Results
A total of 20 differences were identified. We found 2 differences for Navy, 2 differences for
Air Force, 3 differences for ODOs, 5 differences for EPA, and 2 differences for VA. DoE auditors
identified 2 differences, and HHS auditors found 4 differences.     These differences occurred
because the SF-2817s were incomplete or were missing. In addition, in some instances, the
SF-50s were missing or processed late resulting in an inaccurate basic life insurance
withholding and calculation.


Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional coverage
elected as documented on the SF-2817 in the employee’s OPF to the optional coverage
documented in the payroll system. Report any differences resulting from this step and obtain
management’s explanation for the differences.


Results
A total of 19 differences were identified. We found 2 differences for Navy, 4 differences for
ODOs, 7 differences for EPA, and 4 differences for VA. DoE auditors identified 2 differences.
The differences occurred because the applicable SF-2817s were incomplete or missing.          In
addition, some SF-50s were missing or were processed late, resulting in an inaccurate
withholding and calculation for basic life insurance.


Procedure 2.j.
For each individual selected in step 2.a., calculate the withholding amounts for optional
life insurance using the following:

          •	 For Option A: Locate the employee’s age group using the age groups provided for
            Option A in the FEGLI Program Booklet. The withholding amount to be used is the




                                                                                          DODIG-2014-122 │ 9
                        rate listed in the FEGLI Program Booklet for that age group. Compare the calculated
                        amount to the amount withheld for Option A Life Insurance. Report any differences
                        resulting from this step and obtain management’s explanation for the differences.

                      •	 For Option B: Inspect the SF-2817 to obtain the number of multiples chosen for
                        Option B.   Locate the employee’s age group using the age groups provided for
                        Option B in the FEGLI Program Booklet. Round the employee’s annual rate of basic
                        pay up to the next 1,000, divide by 1,000, and multiply by the rate for the respective
                        age group. Multiply this amount by the number of multiples chosen for Option B
                        Life Insurance. Compare the calculated amount to the amount withheld for Option B
                        Life Insurance. Report any differences resulting from this step and obtain
                        management’s explanation for the differences.

                      •	 For Option C: Inspect the SF-2817 to obtain the number of multiples chosen for
                        Option C. Locate the employee’s age group using the age groups provided for
                        Option C in the FEGLI Program Booklet.         Multiply the rate for the age group by
                        the number of multiples chosen for Option C Life Insurance. Compare the calculated
                        amount to the amount withheld for Option C Life Insurance. Report any differences
                        resulting from this step and obtain management’s explanation for the differences.

           Results
           A total of 22 differences were identified. We found 3 differences for Navy, 2 differences for Air Force,
           4 differences for ODOs, 7 differences for EPA, and 4 differences for VA. DoE auditors identified 2
           differences. The differences occurred because the applicable SF-2817s were incomplete or missing.
           In addition, in some instances, the SF-50s were missing or processed late resulting in an inaccurate
           basic life insurance withholding and calculation.


           Procedure 3.
           Randomly select a total of 10 employees who have no Health Benefits withholdings from the
           payroll information corresponding to the three RITS submissions selected above and perform the
           following for each employee selected.


           Procedure 3.a.
           Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in electronic
           or hard copy format, from the selected employee’s OPF or, if applicable, obtain a report (via the
           agency personnel office ) from the agency’s automated system that allows participants to change
           benefits, (e.g., Employee Express), for any Health Benefit transactions in that system for the
           individuals selected. Hard copies can be originals or certified copies. Inspect the documentation




10 │ DODIG-2014-122
(that is, SF-2809 or the agency’s system-generated report) to identify whether health benefits
coverage was not elected. This can be identified in the following ways:

          •	 absence of an SF-2809 in the OPF and no election of coverage made through the
            agency’s automated system that allows participants to change benefits (e.g., Employee
            Express); or

          •	 an SF-2809 in the OPF with Section E checked (indicating cancellation of  coverage)
            and no later election of coverage through the agency’s automated system that allows
            participants to change benefits (e.g., Employee Express); or

          •	 cancellation of coverage through the agency’s automated system that allows
            participants to change benefits (e.g., Employee Express) and no later election of
            coverage with an SF-2809.

Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting from this
step and obtain management’s explanation for the differences.


Results
We did not identify any differences for this comparison.


Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings from the payroll
information corresponding to the three RITS submissions selected above and perform the following
for each employee selected.


Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in electronic
or hardcopy format, from the selected employee’s OPF. Hard copies can be originals or certified
copies. Inspect the SF-2817 to identify that the employee waived or cancelled Basic Life Insurance
coverage.


Procedure 4.b.
Compare the result in step 4.a. to the RITS submissions. Report any differences resulting from this
step and obtain management’s explanation for the differences.




                                                                                            DODIG-2014-122 │ 11
           Results
           A total of 4 differences were identified. We found 1 difference for Army and 1 difference for
           Air Force.     DoE auditors found 1 difference, and HHS auditors found 1 difference.            The
           differences occurred because the applicable SF–2817s were incomplete or missing.


           Procedure 5.
           Calculate the headcount reflected on the September 2013 and March 2014 Semiannual
           Headcount Report selected, as follows.


           Procedure 5.a.
           Obtain existing payroll information (from step 1.a.) supporting each Supplemental Semiannual
           Headcount report.      If existing payroll data are not available, obtain a payroll system query
           that summarizes detailed payroll data supporting each Supplemental Semiannual Headcount
           Report, as follows:

                      •	 Benefit Category (see Semiannual Headcount Report).

                      •	 Dollar Amount of withholdings and contributions.

                      •	 Number Enrolled (deductions made/no deductions).

                      •	 Central Personnel Data File Code.

                      •	 Aggregate Base Salary.

           Procedure 5.b.
           Recalculate the Headcount reflected on each Semiannual Headcount Report.           If an electronic
           file is not available, a suggested method of recalculating the Headcount is as follows: (1) estimate
           the number of employees per payroll register page by counting the employees listed on several
           pages, (2) count the number of pages in the payroll register, and (3) multiply the number
           of employees per page by the number of pages, or count (using a computer audit routine)
           the number of employees on the payroll data file for the period.


           Procedure 5.c.
           Compare the payroll information obtained in step 5.a. and the calculated headcount from
           step 5.b. to the information shown on each respective Semiannual Headcount Report.




12 │ DODIG-2014-122
Procedure 5.d.
Report any differences (e.g., gross rather than net) greater than 2 percent between the
headcount reporting on each respective agency Semiannual Headcount Report and payroll
information from step 5.a. and the calculated Headcount from step 5.b. Obtain a management
official name, telephone number, an e-mail address, and an explanation for the differences.


Results
We identified 8 differences greater than 2 percent when we compared the Semiannual
Headcount Reports to headcounts in the Defense Civilian Pay System (DCPS) data. We found
2 differences between employee headcount listed in the September Semiannual Headcount
Report and headcount listed in the DCPS data. There was 1 headcount difference of
5.16 percent in the DoD Overseas Operations Payroll Office and 1 difference of 10.85 percent
in the Army Overseas Operation Payroll Office. DFAS personnel stated that these differences
occurred because employee separation information was incomplete; a retroactive transaction
was not processed because of an invalid condition; an employee was reactivated in DCPS
to receive a retroactive amount; and human resource personnel did not properly process
employees’ separations.

We found the remaining 6 differences when we compared the total base pay in the
September and March Semiannual Headcount Reports with that shown in the DCPS data.
We identified 2 differences, of 2.21 percent and 2.20 percent, in the Army Overseas Operation
Payroll Office; 2 differences of 2.78 percent and 3.02 percent, in the DoD Overseas Operations
Payroll Office; and 2 differences, of 2.60 percent and 2.54 percent, in the VA Payroll Office.
DFAS management did not explain the differences.


Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and Life
Insurance as follows:


Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected in
step 1.a., as follows:


Procedure 6.a.i.
Multiply the CSRS and FERS payroll base by the withholding and employer contribution
rates required by law.




                                                                                              DODIG-2014-122 │ 13
           Procedure 6.a.ii.
           Compare the calculated totals from step 6.a.i. to the related amounts shown on the RITS
           submissions. Report any differences (e.g., gross rather than net) between the calculated
           amounts and the amounts reported on the RITS submissions that are greater than 5 percent
           of the amounts on the RITS submission, and obtain management’s explanation for the differences.


           Results
           We identified 3 differences greater than 5 percent for the CSRS comparison.                                          The Overseas
           DoD Payroll Office had a 6.24-percent employee-withholding difference and a 26.64-percent
           agency-contribution difference for the pay period ending December 14, 2013.                                                The EPA
           Payroll Office had a 7.7-percent agency-contribution difference for the pay period ending
           February 22, 2014.                DFAS personnel stated that these differences occurred because the
           affected employees had a change in their retirement code.

           For the FERS and FERS-RAE3 comparisons, we did not find any differences for employee
           withholdings or agency contributions greater than 5 percent.


           Procedure 6.b.
           Calculate employee withholdings and employer contributions for Health Benefits for the
           three pay periods selected in step 1.a., as follows:


           Procedure 6.b.i.
           Multiply the number of employees enrolled in each Health Benefits plan and plan option
           by the employee withholdings and employer contributions for the plan and option.


           Procedure 6.b.ii.
           Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
           and contribution amounts shown on the RITS submissions. Report any differences (e.g., gross
           rather than net) between the calculated amounts and the amounts reported on the RITS
           submissions that are greater than 5 percent of the amounts on the RITS submission,
           and obtain management’s explanation for the differences.


           Results
           We did not find any differences for employee withholdings or agency contributions greater
           than 5 percent for this comparison.


           	3	
                 Employees covered by FERS include employees covered by FERS-RAE which became effective January 1, 2013. We performed separate
                 procedures to review Federal Employees covered by FERS-RAE.



14 │ DODIG-2014-122
Procedure 6.c.
Calculate the Basic Life Insurance employee withholdings and employer contributions for the
three pay periods selected in step 1.a., as follows:


Procedure 6.c.i.
Obtain a payroll system query from APP personnel to obtain the total number of employees
with Basic Life Insurance coverage and the aggregate annual basic pay for all employees with
Basic Life Insurance.


Review of Furloughed Employees
Based on our preliminary review of the basic life insurance employee withholdings
(Procedures 6.c.ii & 6.c.iii), basic life insurance employer/agency contributions (Procedure 6.c.iv),
and Option B life insurance coverage employee withholdings (Procedures 6.d.iii, and 6.d.iv),
we provided DFAS a list of differences noted for pay period ending August 24, 2013. DFAS
determined that our exceptions resulted from DoD employees being furloughed during that
pay period. We determined that we should be using 72 hours (rather than 80 hours) to annualize
the salaries for these furloughed employees. We consulted with OPM personnel, who agreed
but asked that we include in the report the differences calculated using the original 80 hours,
and our revised differences, calculated using 72 hours.


Procedure 6.c.ii.
For employee withholdings: Add the product of 2,500 times the number of employees with
Basic Life Insurance coverage from step 6.c.i. above to the aggregate annual basic pay for all
employees with Basic Life Insurance from step 6.c.i. above to calculate the estimated total
Basic Life Insurance coverage.     Divide this calculated total by 1,000 and multiply it by the
withholding rate required by law.        The Life Insurance withholding rates are found in the
FEGLI Program Booklet on OPM’s website.


Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage reported
on the RITS submission. Report any difference (i.e., gross rather than net) between the estimate
and the amount of withholdings reported on the RITS submission greater than 5 percent of the
amounts on the RITS submission, and obtain management’s explanation for the difference.


Results
We initially identified two differences for employee withholdings.        The Army Payroll Office
had an 8.85-percent difference, and the Overseas Army Payroll Office had a 9.79-percent



                                                                                              DODIG-2014-122 │ 15
           difference for the pay period ending August  24, 2013.       However, after working with DFAS
           representatives and adjusting our recalculation formulas to account for DoD furloughed
           employees, we did not identify any differences greater than 5 percent for this comparison.


           Procedure 6.c.iv.
           For agency contributions: Divide the results of step 6.c.ii. by 2; this approximates agency
           contributions, which are one-half of employee withholdings. Compare this result to the amount
           reported on the RITS submission. Report any differences (i.e., gross rather than net) between
           the estimated amount and the actual amount reported on the RITS submission that are greater
           than 5 percent of the amounts on the RITS submission, and obtain management’s explanation
           for the differences.


           Results
           We initially identified 2 differences for employer/agency contributions.        The Army Payroll
           Office had an 8.87-percent difference, and the Overseas Army Payroll Office had a
           9.85  percent difference for the pay period ending August 24, 2013.      However, after working
           with DFAS representatives and adjusting our recalculation formulas to account for DoD
           furloughed employees, we did not identify any differences greater than 5 percent for
           this comparison.


           Procedure 6.d.
           Calculate the Option A, Option B and Option C Life Insurance coverage withholdings for the
           three pay periods selected by using detail payroll reports used to reconcile the RITS reports
           in Step 1.    In addition to the information used for step 1, the reports should include the
           employee's date of birth, annual rate of basic pay, and number of multiples selected for
           Option B and C. Note: While similar to step 2.j., the calculation at this step is for the entire
           amount reported on the RITS submissions for the three pay periods selected, as opposed to
           the sample of 25 employees in step 2.j.


           Procedure 6.d.i.
           Multiply the number of employees in each age group by the appropriate rate for Option A
           in accordance with the rates for age groups provided in the FEGLI Program Booklet.


           Procedure 6.d.ii.
           Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS submissions.
           Report any differences (i.e., gross rather than net) greater than 2 percent of the amounts on
           the RITS submission, and obtain management’s explanation for the differences.




16 │ DODIG-2014-122
Results
We did not identify any differences greater than 2 percent for this comparison.


Procedure 6.d.iii.
Segregate the reports for Option B and Option C insurance into the age groups shown in the FEGLI
Program Booklet. For Option B, round the employee's annual rate of basic pay up to the next
1,000, then divide it by 1,000, and then multiply this amount by the rate for the age group by then
multiplying this by the number of multiples:

(Annual rate of basic pay (rounded up) /1,000*rate*multiples).

For Option C, multiply the rate for the age group by the number of multiples chosen for
each employee.


Procedure 6.d.iv.
Compare the result in step 6.d.iii. to the amounts for Option B and Option C, respectively, reported
on the RITS submissions. Report any differences (i.e., gross rather  than net) greater than two
percent of the amounts on the RITS submission for Option B or Option C, and obtain management’s
explanation for the differences.


Results
We initially identified 2 differences for Option B employee withholdings. The Army Payroll Office
had a 7.97-percent difference, and the Overseas Army Payroll Office had a 9.06-percent difference
for the pay period ending August 24, 2013. However, after working with DFAS and adjusting our
recalculation formulas to account for DoD furloughed employees, we did not identify any differences
greater than 2 percent for this comparison.

We identified 3 differences for Option C employee withholdings. The DoD Indianapolis Payroll
Office had a 2.70-percent difference, the EPA Payroll Office had an 8.51-percent difference,
and the HHS Payroll Office had a 6.17-percent difference for the pay period ending
December 13, 2013.      According to DFAS personnel, the differences were due to retroactive
adjustments for termination of coverage, retroactive adjustments for separation of employees,
and adjustments for the collection of debt.


Procedure 7.
Compare the list of field offices/duty stations to the list of local CFC campaigns obtained from
OPM’s OCFCO [Office of Combined Federal Campaign Operations].




                                                                                             DODIG-2014-122 │ 17
           Procedure 7.a.
           Determine in which campaign each field office/duty station is located. (Note: It is possible for
           a field office/duty station to be in a location with no local CFC campaign.)


           Results
           We determined the campaign for each field office/duty station location.


           Procedure 8.
           Compare the list of accounting codes to the identified campaigns for each field office/duty station.


           Procedure 8.a.
           Determine the accounting code for each field office/duty station.


           Procedure 8.b.
           Determine if the name of the campaign, the PCFO, and address of the PCFO in the APP system
           agree to the information for that field office/duty station on the list of local CFC campaigns
           obtained from OPM’s OCFCO.

           Report as findings the following:

                      a.	 All instances in which the name of the campaign, PCFO, or address of the PCFO
                         on the list of accounting codes from the Federal Payroll Office does not agree with
                         the information on the list of all local CFC campaigns obtained from OPM’s CFC.
                         A chart detailing the differences should be included. Obtain management’s explanation
                         for the differences and a corrective action plan.

           Results
           We found 11 differences when we compared the name of the campaign, the PCFO, and the
           PCFO address with the DCPS CFC information and the OPM CFC information: 2 differences
           caused by nonexistent campaign numbers (which OPM management stated no longer exist
           because the campaigns merged with other CFC campaigns); 3 differences resulting from different
           campaign names; 3 differences caused by different PCFO names; and 3 differences caused by
           different PCFO addresses. DFAS management did not explain why these remaining 9 differences
           occurred but stated they corrected them. See Tables 2, 3, and 4 for the details of the 9 differences
           by category.




18 │ DODIG-2014-122
Table 2. Campaign Name Differences
        Campaign Number                Campaign Name per OPM                 Campaign Name per DCPS
              0606                Desert Southwest CFC                   DESERT VALLEY CFC
              0500                Greater Mississippi CFC                SOUTHERN MISSISSIPPI CFC
              0975                Puerto Rico & U.S. Virgin Island CFC   PUERTO RICO CFC


Table 3. Principal Combined Fund Organization Name Differences
        Campaign Number                  PCFO Name per OPM                     PCFO Name per DCPS
              0140                c/o Federal Employees Support for      CHARITABLE GIVING INC
                                  CFC Charitable Giving, Inc.
              0651                c/o Community Health Charities of      C/O COMMUNITY HEALTH CHARIT
                                  North Carolina
              0923                c/o Community Health Charities of      C/O COMMUNITY HEALTH CHARIT
                                  Washington State


Table 4. Principal Combined Fund Organization Address Differences
        Campaign Number                 PCFO Address per OPM                  PCFO Address per DCPS
              0923                19115 68th Ave, H-100, Kent,           19115 68TH AVE S H-100, SEATTLE,
                                  WA 98032                               WA 98032
              0660                1930 Jake Alexander Blvd. W.,          PO BOX 5065, SALISBURY,
                                  Suite B, Salisbury, NC 28147-1186      NC 281470088
              0507                P.O. Box 203, Vicksburg, MS 39181      P.O. BOX 203, VICKSBURG,
                                                                         MS 39180



Procedure 9.
Sort the report of all employees with CFC deductions by Official Duty Station.


Procedure 9.a.
Compare the Official Duty Stations to the campaigns identified for those locations.


Procedure 9.b.
Compare the Accounting Codes for each employee with CFC deductions to the accounting code
identified for that employee’s Official Duty Station.

         •	 Determine if this agrees to the accounting code identified for that field office/duty
           station.




                                                                                                    DODIG-2014-122 │ 19
           Report as findings the following:

                      a.	 All instances in which a Federal agency has a CFC deduction for an employee whose
                         official duty station is in an area with no local CFC campaign. A chart listing the
                         Federal agency, the duty station code and the campaign receiving funds should be
                         included.      Obtain management’s explanation for the differences and a corrective
                         action plan.

                      b.	 All instances in which the accounting code for an employee with CFC deductions does
                         not agree with the accounting code for that employee’s Official Duty Station. A chart
                         listing the Federal agency, the duty station code, the campaign used, and the correct
                         campaign should be included. Obtain management’s explanation for the differences
                         and a corrective action plan.

           Results
           We determined that 2,015 out of 108,593 employees with the CFC deductions in the
           March Semiannual Headcount pay periods were incorrectly coded. We identified 104 differences
           for the Air Force, 221 differences for the Army, 800 differences for the Navy, 41 differences for
           the National Guard, 236 differences for the ODOs, 11 differences for DoE, 9 differences for EPA,
           96 differences for HHS, and 497 differences for VA. We provided detailed information of our
           results to OPM in a separate document.

           Army representatives stated that based on their review of a nonstatistical sample of 162 of the
           221 differences from six major commands:

                       •	 26 employees made their pledges using MyPay, so the Army representatives could not
                         validate the pledge input;

                       •	 17 pledge forms were not received;

                       •	 16 pledge forms were entered incorrectly by Army personnel; and

                       •	 3 CFC pledge forms could not be validated because they did not contain campaign codes.

           Although Army representatives did not provide a response for the remaining 100 of 162 CFC
           pledge forms, they stated that they will continue to research and resolve any matters related to these
           pledge forms. Army representatives also provided corrective-action steps. Navy representatives
           acknowledged that 674 of the 800 differences occurred because their employees at the Kittery,
           Maine, duty station should have contributed to the Maine CFC #0391 and not the Northern
           New England CFC #0571 for the 2013 CFC campaign. OPM notified the Navy that the Maine
           and Northern New England CFC campaigns have merged for 2014. Air Force representatives
           stated that they did not provide us some of their smaller duty stations which caused many of



20 │ DODIG-2014-122
the differences.   Air Force representatives also stated that they will ensure these smaller
duty stations are included in future lists they send to us. HHS representatives stated that the
CFC business process in their Human Resources office is not consistent, so identifying
inconsistencies is difficult. HHS representatives recommended that DFAS representatives meet
with HHS CFC management team to develop a plan to be used by all HHS locations. EPA
representatives stated that four of the exception employees changed addresses, four employees
live in the state where their donations were sent, and one employee used MyPay for CFC donations.
EPA representatives added that no actions are necessary to address these discrepancies. The
National Guard, ODO, DoE, and VA did not provide explanations to their differences.


Procedure 10.
From the list of accounting codes that do not agree with the field office/duty station, select a
judgmental sample of two pledges per federal agency and request the hard copy pledge form or
electronic copy of the pledge form from the agency.

          •	 Determine if the pledge form used was for the correct campaign based on the official
            duty station.

Report as findings the following:

       a.	 All instances in which the incorrect pledge form was used by the employee. A chart
            listing the Federal agency, the correct campaign, and the campaign used should be
            included.

Results
We nonstatistically selected 57 pledges. Agencies did not provide the pledge forms for 30 pledges.
Agencies were unable to provide copies of electronic pledge forms for 4 employees. For the
23 pledge forms provided, we determined that 2 pledge forms were correctly prepared and
entered into DCPS, 18 employees filled out the incorrect campaign pledge form based on the
employee’s official duty station, and the remaining 3 pledge forms were correctly prepared by the
employee, but the campaign information was incorrectly entered in DCPS.




                                                                                           DODIG-2014-122 │ 21
           Table 5: Incorrect Employee Pledge Form by Organization
                         Federal Organization                     Correct Campaign Code            Campaign Code Used
            Air Force
               Air Force Legal Operations Agency                           0990                           0005
               Air Force Wide Support Element                              0852                           0656
               Air Force Audit Agency                                      0896                           0005
            Environmental Protection Agency                                0990                           0751
            Health and Human Services                                                                          
               Office of the Secretary of Health and                       0589                           0626
               Human Services
                                                                           0405                           0990
               Substance Abuse and Mental Health                           0072                           0427
               Services Administration
               Health Resources and Services                               0524                           0528
               Administration
               Food and Drug Administration                                0923                           0931
                                                                           0924                           0931
               Indian Health Service                                       0606                           0990
                                                                           0606                           0051
               National Institutes Of Health                               0405                           0990
               Centers for Disease Control and Prevention                  0990                           0211
                                                                           0481                           0211
               Centers for Medicare and Medicaid Services                  0990                           0405
                                                                           0096                           0405
            Department of Veterans Affairs                                    *                           0685

           * There is no local campaign for the duty station reviewed; therefore, the employee should not have submitted a
             pledge form.




22 │ DODIG-2014-122
Acronyms and Abbreviations
       APP Agency Payroll Provider
      AUP Agreed-Upon Procedure
       CFC Combined Federal Campaign
      CSRS Civil Service Retirement System
     DCPS Defense Civilian Pay System
      DFAS Defense Finance and Accounting Service
       DoE Department of Energy
       EPA Environmental Protection Agency
     FEGLI Federal Employees Group Life Insurance
      FEHB Federal Employees Health Benefit
      FERS Federal Employees Retirement System
 FERS-FRAE Federal Employees Retirement System – Further Revised Annuity Employees
  FERS-RAE Federal Employees Retirement System – Revised Annuity Employees
      HHS Department of Health and Human Services
    OCFCO Office of Combined Federal Campaign Operations
      ODO Other Defense Organizations
       OPF Official Personnel File
      OPM Office of Personnel Management
     PCFO Principal Combined Fund Organization
      RITS Retirement and Insurance Transfer System
        VA Department of Veterans Affairs




                                                                                     DODIG-2014-122 │ 23
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
